HHS/OIG-Audit--"Audit of the Pension Plan at a Terminated Medicare Contractor, Blue Cross and Blue Shield of Kansas City, (A-07-97-02503)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Pension Plan at a Terminated Medicare Contractor, Blue
Cross and Blue Shield of Kansas City," (A-07-97-02503)
July 13, 1998
Complete Text of Report is available in PDF format
(800 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides you with the results of our review of the Pension Plan
at a Terminated Medicare Contractor, Blue Cross Blue Shield of Kansas City (Kansas
City). Kansas City was the Medicare contractor for parts of the state of Missouri
until the contract was terminated effective October 1, 1991. Under the terms
of the contract, any difference between the Medicare segment pension assets
and actuarial liability at the time the Medicare segment terminated should be
refunded to the Medicare program. We recommend that Kansas City refund $635,984
of excess Medicare pension assets resulting from the termination of their Medicare
contract. Kansas City believed that elements of our calculations resulted in
an overstatement of the recommended refund.